AUDIT REPORT
CRIMINAL JUSTICE IN INDIAN COUNTRY
Audit Report 96-16, (9/96)
TABLE OF CONTENTS
AUDIT RESULTS
INTRODUCTION
Objectives
Scope and Methodology
Background
FINDINGS AND RECOMMENDATIONS
I. LAW ENFORCEMENT
Coordination and Communication
Training and Cultural Awareness
Timeliness of Indian Country Investigations
Crime Statistics
Conclusion
Recommendation
II. PROSECUTION
Communication
Prosecution Priorities
Case Management Systems
Conclusion
Recommendation
III. TRIBAL COURTS PROJECT
U.S. Magistrate Court Project
Tribal Court - DOJ Partnership Project
Conclusion
IV. GRANT FUNDING
Regional Seminars
American Indian and Alaskan Native Affairs
Desk
Block and Formula Grants
Eligibility of Tribal Governments
Conclusion
APPENDIX I - SCOPE AND METHODOLOGY
APPENDIX II - BACKGROUND
#####